HHS/OIG, Audit -"Review of Head Start Compensation at Mississippi Action for Progress, Inc.,"(A-04-04-03502)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Head Start Compensation at Mississippi Action for Progress, Inc.," (A-04-04-03502)
December 6, 2004
Complete
Text of Report is available in PDF format (822 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Mississippi Action for Progress’ (MAP) compensation
practices for the top five key executives and for teachers were reasonable and consistent with Federal requirements and
guidelines.  MAP’s compensation for teachers appeared reasonable and consistent with Federal requirements when
compared to other Head Start grantees in Mississippi as well as teachers employed by the State.  Also, cost of living
allowances were allocated and quality improvement funds used in a manner consistent with Administration for Children and
Families program instructions.  However, MAP did not have a current wage study to support the compensation paid to
its employees.  MAP also did not comply with the Office of Management and Budget Circular A-122 when allocating executive
compensation charges to Head Start and other programs.  We also identified four aspects of MAP’s financial operations
that needed improvement.  MAP officials generally agreed with our findings and recommendations.